                 Report on Audit of Revised Forward Pricing
                     Indirect Rates for Fiscal Year 2004

                                   July 2004

                     Reference Number: 2004-1C-122




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            July 14, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE


       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Revised Forward Pricing Indirect Rates for
                              Fiscal Year 2004 (Audit #20041C0232)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s May 20, 2004,
       revised forward pricing indirect rate proposal for Fiscal Year (FY) 2004. The purpose of
       the examination was to determine the reasonableness of the proposed forward pricing
       rates for the remainder of the contractor’s FY 2004.
       The DCAA considered the contractor’s estimating system adequate to ensure the
       forward pricing rates are based on accurate, complete, and current cost or pricing data.
       The DCAA considered the proposal, as revised, to be acceptable as a basis for
       negotiating FY 2004 indirect rates for forward pricing purposes for FY 2004 only.
       Additionally, the DCAA took no exceptions to the revised overhead and general and
       administrative rates submitted.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
